No. 20-3168
IN THE SUPREME COURT OF THE UNITED STATES

D.C. 5:20-CV-03017-SAC

RONALD E. JOHNSON EL
Petitioner
VS.
DEREK SCHMIDT, et air.
Defendant(s)

PROOF OF SERVICE

I, Ronald E. Johnson El, affirm in truth and fact, that I served my
Petition for Writ of Certiorari and Motion To Proceed In Forma Pauperis, as
required by Supreme Court Rule 29, by depositing an envelope containing
the above-mentioned documents into the United States Mail on the / / < day of
March, 2021, addressed to the address below:
Derek Schmidt, et al
120 S.W. 10th Ave.
Topeka, KS. 66612-1597

Ronald E /Johnson El

f

CERTIFICATE OF SERVICE

I certify that the original Writ of Certiorari, along with two (2)
copies of the same were mailed to the United States of America Supreme Court,
and a copy of the same was mailed to Defendant/Attorney General Derek Schmidt,
et al, as addressed below, mailed on the j^J day of March, 2021.

Derek Schmidt, et al
120 S.W. 10th Ave.
Topeka, KS. 66612
U.S.A.

The United States Supreme Court
1 First Street, N.ET
Washington, D.C. 20543
U.S.A.

It is also in Honer certified all the foregoing Writ of Certiorari is in
fact truth, and correct, and without deceit. Mailed using the U.S. Postal
Service on this
day of March, 2021.

A Friend of this Court,

leMn,

Ronald
if

mf

CERTIFICATE OF SERVICE

I certify that the original Writ of Certiorari, along with two (2)
copies of-the same were mailed to the United States of America Supreme Court,
and a copy of the same was mailed to Defendant/Attorney General Derek Schmidt,
et al, as addressed below, mailed on the / 7^~day of March , 2021.

Derek Schmidt, et al
120 S.W. 10th Ave.
Topeka, KS. 66612
U.S.A.

The United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
U.S.A.

It is also in Honor certified all the foregoing Writ of Certiorari is in
fact truth, and correct, and without deceit. Mailed using the U.S. Postal
Service on this / ”7
day of March, 2021.

A Friend of this Court,

